DOE F 1325.8
  (8-89)
EFG (07-90)


Ulited States Government                                                                        Department of Energy

memorandum
           DATE:     January 22, 2003                                       Audit Report No.: OAS-L-03-08
      REPLY TO
      ATTN OF:       IG-34 (A02PT025)
      SUBJECT:       Audit on "Recruitment and Retention of Personnel in the Department of Energy"

               TO:   Director, Office of Management, Budget and Evaluation/Chief Financial Officer, ME-1I


                     INTRODUCTION AND OBJECTIVE

                     In July 2001, the Office of Inspector General reported on Recruitment and Retention of
                     Scientific and Technical Personnel(DOE/IG-0512). That report disclosed, that the
                     Department of Energy (Department) had been unable to recruit and retain critical
                     scientific and technical staff. Moreover, historical hiring and attrition rates indicated
                     that there might be greater shortages in less than five years' time. To help ensure
                     needed scientific and technical resources would be available to meet mission
                     requirements, we recommended that the Department develop performance measures
                     and take other actions to improve recruitment and retention efforts.

                     In addition to scientific and technical needs, the Department employs a large number of
                     individuals to provide direct support and perform business related services.. These
                     activities include contract performance and accountability, information management,
                     and property control. Because of projected losses, we initiated our audit to determine
                     whether the Department had taken action to recruit and retain sufficient m:.mbers of
                     administrative personnel and to follow-up on actions taken to address technical and
                     scientific personnel needs. Our scope and methodology are described in the attachment
                     to this report.

                     CONCLUSIONS AND OBSERVATIONS

                     The Department had taken a number of positive actions to address human capital
                     issues. For example, it initiated several programs to attract entry-level and develop
                     current employees. While these improvements are significant, the Department had not
                     developed a methodology for conducting skills gap analyses critical to completing an
                     overall recruitment and retention plan. Absent Department-level guidance, Offices
                     such as the National Nuclear Security Administration and Energy Efficien cy and
                     Renewable Energy sought advice on conducting staffing gap analyses fror external
                     agencies and are developing methodologies that may not produce useful results. The
                     Department also had not developed, specific, quantifiable performance measures for key
                     recruitment and retention goals as recommended in our previous audit. Without
                     additional action, the Department may be unable to respond to potential retirements of
                     27 percent of its administrative workforce and 43 percent of the administrative
                     managers (Senior Executive Service (SES) and GS/GM-15 managers) through 2005.
 Current Outlook

 The Department had taken action to address problems related to its aging workforce
 and skill imbalances. These efforts included implementation of programs to recruit
 entry-level and develop existing staff. For example, it established a Career Intern
 Program, an SES Candidate Development Program, and a Mentoring Program. In
 cooperation with the Office of Management, Budget and Evaluation (OM13E), program
 offices developed plans that included "business visions" for the future and. identified
 general skills sets needed for mission accomplishment. The Office of Human
Resources Management also launched a human capital consulting service to assist
program offices with planning and implementing human capital strategies.
Additionally, the Department established certification programs in contract and project
management, two of the Department's most mission critical occupations. While these
actions are positive, additional action is necessary if the Department is to respond to
anticipated retirements and organizational changes resulting from pending:
reorganizations that are likely to drastically change the demographics of tle workforce.

Skills Gap Analyses

While the Department had taken a number of actions, it had not developed, a
methodology for performing in-depth skills gap analyses. Such analyses are essential
for preparing a Department-level plan to address anticipated shortfalls and are of
critical importance to programs or offices engaged in large-scale reorganiz!ations.
Program office officials engaged in major reorganizations such as the National Nuclear
Security Administration and the Office of Energy Efficiency and Renewable Energy
told us that OMBE was unable to provide assistance in this area and that they had to
look to other Federal agencies and external consultants for guidance. Because of
individual approaches to developing methodologies, completed skills gaps; analyses
                                                                                     are
likely to produce results that are inconsistent and not comparable. Human. Resource
officials told us that past workforce studies were based on inconsistent methodologies
and produced results that were unusable.

Performance Measures

The Department also needs to strengthen performance management initiatives in the
recruitment and retention area. For example, one of the measures included in the Fiscal
Year 2003 Annual Performance Plan (Plan) designed to integrate the expanded use of
hiring incentives and flexibilities with budget and performance plans will most likely
not be implemented because of funding constraints. A second measure included in
                                                                                     the
Plan addressed development and implementation of SES Candidate Development and
Mentoring Programs but lacked quantifiable measures such as timeframes or goals
                                                                                    for
participation. Additionally, the Plan did not contain a measure for determining and
addressing staffing needs on a Departmentwide basis.




                                           2
SUGGESTIONS

To strengthen recruitment and retention efforts, we suggest that the Director, Office of
Management, Budget and Evaluation/Chief Financial Officer, in coordina:ion with
Program Officials:

      1. Develop guidance for conducting skills gaps analyses; and

     2. Develop quantitative and comprehensive recruitment and retenti:on
        performance measures.

Since no recommendations are being made in this letter report, a formal response is not
required. We appreciated the cooperation of your staff throughout the audit.




                                     Rickey.    Hass, Director
                                     Science, Energy, Technology,
                                       and Financial Audits
                                     Office of Audit Services
                                     Office of Inspector General

Attachment

cc: Team Leader, Audit Liaison, ME-2.1




                                          3
                                                                              Attachment

                            SCOPE AND METHODOLOGY

We conducted the audit from April to December 2002 at Department of Energy
Headquarters in Washington, DC and Germantown MD; the National Energy
Technology Laboratory in Pittsburgh, PA; the Albuquerque Operations Office in
Albuquerque, NM; the Chicago Operations Office in Argonne, IL; and the Richland
Operations Office in Richland, WA.

To accomplish the audit objective we reviewed regulations related to recruiting and
retaining personnel, interviewed program office officials to determine the status of
reorganizations and recruitment and retention of personnel in their organi;ations,
analyzed plans developed by Human Resources and program offices relatcld to
recruitment and retention and program office reorganizations, and reviewed
performance measures established for recruitment and retention.

The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits, and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective. Because
our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did not rely on
computer-processed data to satisfy the objective of our audit.

Management waived the exit conference.




                                           4
DOE F 1325.8
   (8-89)
 EFG (07-90)


United States Government                                                                        Department of Energy


 Memorandum
           DATE:      JAN 28 2003
      REPLY TO
       ATTN OF:      IG-34 (A02PT025)

      SUBJECT:       Final Report Package for "Recruitment and Retention of Personnel in the Department of Energy"
                     Audit Report Number: OAS-L-03-08
               TO:   Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services

                     Attached is the required final report package on the subject audit. The pertinent details are:
                         1. Actual Staff days:      335
                            Actual Elapsed days: 287
                         2. Names of OIG and/or contractor audit staff:

                            Assistant Director:     George W. Collard
                            Team Leader:            Robert W. Lewandowski
                            Auditor-in-Charge:      Matthew J. Pollock
                            Audit Staff:            Jeffrey S. Nelson
                         3. Coordination with Investigations and Inspections:
                            Investigations:         Brenda Froberg - 4/29/02 and 8/1/02
                            Inspections:            Henry Minner - 4/30/02 and 31/02



                                                                   Rickey R. ass, Director
                                                                   Science, nergy, Technology,
                                                                     and Financial Audits
                                                                   Office of Audit Services
                                                                   Office of Inspector General
                     Attachments:
                     1. Final Report (3)
                     2. Monetary Impact Report
                     3. Audit Project Summary Report
                     4. Audit Database Information Sheet
                                                                                                                   Attachment 2

                                   MONETARY IMPACT OF REPORT NO.: OAS-L-03-08


      1. Title of Audit:          "Recruitment and Retention of Personnel in the Department of Energy"

      2. Division:                Science, Energy, Technology, and Financial Audits

      3. Project No.:             A02PT025

      4. Type of Audit:

             Financial:                                                Performance:        X
                Financial Statement                                      Economy and Efficiency                    X
                Financial Related                                        Program Results
             Other (specify type):

5. Please report monetary savings identified in the report. If unable to quantify monetary savings at this
time, please identify any potential future impact on audited activities/locations in the remarks section
below.

                                                                                                                 MGT.     POTENTIAL
          FINDING                         BETTER USED                           QUESTIONED COSTS               POSITION    BUDGET
                                                                                                                           IMPACT
                                                  _Recurrin
(A)              (B)               (C)    (D)         (E)       (F)        (G)           (H)        (I)           (J)        (K)
                 Title            One    Amount      No.       Total    Questioned   Unsupported   Total       C=Concur     Y=Yes
                                  Time    Per        Yrs.     Amount     Portion       Portion                 N=Noncon     N=No
                                          Year                                                                  U=Undec


      N/A (Letter Report)




TOTALS--ALL FINDINGS




 6. Remarks: Although the report did not identify specific monetary savings, we did suggest that
             OMBE develop Department-wide guidance for conducting skills gaps analyses and
             develop quantitative and comprehensive recruitment and retention performance
                    measures.


 7. Contractor:             N/A                           10. Approvals:
 8. Contract No.: N/A                                         Division Director & Dat-V
 9. Task Order No.: N/A                                       Technical Advisor & Date                     4
                                                                                                               v
                                                    Office of the Inspector General (OIG)
                                                     Audit Project Summary Report (APS)


Report run on:                    January 28, 2003 2:11 PMPage



 Audit#: A02PT025              Ofc:    PTA     Title: DOE RECRUITMENT AND RETENTION EFFORTS

                                                                 *
                                                                 . .        Milestones     *...

                                                --------               -Planned    ----------------                         Actual
                                              Profile                  End of Survey          Revised
 Entrance Conference:                        01-APR-02                  10-APR-02                 10-APR-02              10-APR-02

 Survey Completed:                           01-JUN-02                  19-JUL-02                 19-JUL-02              19-JUL-02

 Field Work Complete:                                                                             30-AUG-02
 Draft Report Issued:                                                       06-SEP-02             10-JAN-03
 Exit Conference:                                                                                 21-NOV-02
 Completed with Report:                     01-OCT-02                                             22-JAN-03              22-JAN-03   (R
 -------- Elapsed Days                               183                                                                     287
  ----------       Staff Days:                       200                           0                                         345

 Date Suspended:                                                               Date Terminated:
 Date Reactivated:                                                              Date Cancelled:
 DaysSuspended(Cur/Tot):                (           0/                  )       Report Number:                 OAS-L-03-08
 Rpt Title:         RECRUITMENT AND RETENTION OF PERSONNEL IN THE DEPARTMENT OF ENERGY

                                              ***         Audit Codes and Personnel                     ****


 Aud Type: EAE            ECONOMY & EFFICIENCY
 Category: DPA            DEPARTMENTAL ADMIN.                                    AD:              376          LEWANDOWSKI
 DOE-Org:  HAH            HEADQUARTERS, ADMINI                                   AIC:             572          POLLOCK
 Maj Iss:  033            Not Found                                              HDQ-Mon: 421.                 SCHULMAN
 Site:            MRA MULTI-REGION AUDIT                                         ARM:             459          COLLARD

                                                    ****         Task Information ****

       Task No:
       Task Order Dt:                                              CO Tech. Rep:
       Orig Auth Hrs:                                              Orig Auth Costs:
       Current Auth:                                              Current Auth Cost:
       Tot Actl IPR Hr:                                           Tot Actl Cost:

                                                          ****     Time Charges          ****
                   SEmnp/Con    Name          Numdays                        Last Date

                    POWELL, J                            1.3                 28-DEC-02
                    LEWANDOWSKI, R                  27.9                     25-JAN-03
                    POLLOCK, M                  148.5                        25-JAN-03
                    NELSON, J                   167.4                        25-JAN-03
                    Total:                      345.1
                                                     t****       ATC Information **
 Atc           Atc Rank     Atcdesc
                                                                                 Attachment 4
                      AUDIT DATABASE INFORMATION SHEET


1. Project No.:    A02PT025

2. Title of Audit: Recruitment and Retention of Personnel in the Department of Energy

3. Report No./Date OAS-L-03-08/January 22, 2003

4. Management Challenge Area: None

5. Presidential Mgmt Initiative: Strategic Management of Human Capital

6. Secretary Priority/Initiative:   None

7. Program Code: MA

8. Location/Sites: Headquarters; National Energy Technology Laboratory; and Albuquerque,
   Chicago, and Richland Operations Offices.

9. Finding Summary: The report did not contain a finding, but noted that the Department had
   not developed a methodology for performing in-depth skills gap analyses and needed to
   strengthen performance management initiatives in the recruitment and retention area.

10. Keywords:

            Human Capital
            Recruitment and Retention
            Human Resources
